   FORMSCC-1000




   TO: AIGI
                                              OFFICE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS

                                         ACTION MEMoRANDuM
                                                                        FILE NUMBER
                                                                        I99050018
                                                                                    '
                                                                                               1   DATE

                                                                                                   June29,2001
                                                                                                                 FOUNDA I ( ) \
                                                                                                   NATIONALSC~ENCE




                                                                        OFFICE OF ORIGIN           PREPARING OFFICE
                                                                -       NSF/OIG                    NSF/OIG


   0ARKANSAS DELTA COUNCIL
    ARKANSAS DEPARTMENT OF HIGHER EDUCATION




   This investigation was predicated on allegations from officials with the Arkansas State Department of Higher
   Education and the Science and Technology Authority who alleged NSF grant hnds were misappropriated by
B- 1                                         of the Arkansas Delta Council (ADC).

   ADC is the parent organization of the Arkansas Delta Foundation, an agency devoted to improving living
   conditions in eastern Arkansas. A federal grand jury was convened to investigate the allegations, along
   with an investigation by the Federal Bureau of Investigation, Little Rock, Arkansas.
                                                                              I


   On June 27,2001, Assistant United States Attorney                   U.S. Attorneys Office, Little Rock,
   Arkansas, advised his office declined to accept the matter for prosecution, due to the witnesses lack of
   creditability.

   Based upon their findings, the investigation is closed.




   COPIES MADE:                                                                                     (For Headquarters Use)


                                                                                               -     -------------------


   SURNAME            PREPARED BY         cl FARED BY       CLEARED BY            CLEARED BY
   & TITLE            Snecial Aeent
                                          Attorney
                             'I"'

                             ---
                         3
                  -                                                 -   .

   INITIALS                               d     -           I
                                    .
                                    .r
   & DATE
                                                                --,I~ l o l
                      July 2,2001
                                          7-6-o/
